            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF NEW JERSEY
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2004

      March 2006   A-77-06-00009




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   March 24, 2006                                                             Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject: Management Advisory Report: Single Audit of the State of New Jersey for the Fiscal
        Year Ended June 30, 2004 (A-77-06-00009)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of New Jersey for the Fiscal Year ended June 30, 2004. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        KPMG, LLP performed the audit. Results of the desk review conducted by the
        Department of Health and Human Services (HHS) have not been received. We will
        notify you when the results are received if HHS determines the audit did not meet
        Federal requirements. In reporting the results of the single audit, we relied entirely on
        the internal control and compliance work performed by KPMG and the reviews
        performed by HHS. We conducted our review in accordance with the Quality Standards
        for Inspections issued by the President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The New Jersey Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The New
        Jersey Department of Labor and Workforce Development (DLWD) is the New Jersey
        DDS’ parent agency.

        The single audit reported that reconciliation procedures were not in place between the
        Time and Leave Reporting System (TALRS) used to generate payroll costs and the
        Cost Accounting System (CAS) used to record payroll costs charged to each Federal
Page 2 – Candace Skurnik


program. Therefore, the payroll costs charged to various Federal programs may not
have been accurate. The corrective action plan indicated that the TALRS and CAS
systems will be replaced with a new payroll system in April 2006, which will eliminate
the reconciliation problem (Attachment A, pages 1, 2, and 3).

The Office of the Inspector General is currently conducting an audit of Administrative
Costs Claimed by the New Jersey DDS (A-02-06-16043) that covers the same time
period as this single audit. The administrative cost audit will review the allowability of
payroll costs claimed by the New Jersey DDS. Accordingly, we are not making any
recommendations.

The single audit also identified errors in the amounts used to calculate the State’s fringe
benefit rates (Attachment B, pages 1 and 2). Although this finding was not specifically
identified to SSA, it may have an impact on DDS operations. I am bringing this matter
to your attention as it represents a potentially serious service delivery and financial
control problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee and
Rona Lawson. If you have questions contact Shannon Agee at (816) 936-5590.




                                                  S
                                                  Patrick P. O’Carroll, Jr.

Attachments
Attachment A
  Page 1 of 3
Attachment A
  Page 2 of 3
Attachment A
  Page 3 of 3
Attachment B
  Page 1 of 2
Attachment B
  Page 2 of 2
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
